HHS/OIG, Audit -"Post Retirement Benefit Costs Claimed by Horizon Blue Cross Blue Shield of New Jersey,"(A-07-03-03044)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Post Retirement Benefit Costs Claimed by Horizon Blue Cross Blue Shield of New Jersey," (A-07-03-03044)
August 6, 2004
Complete
Text of Report is available in PDF format (130 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of  this review was to determine the allowability of $2,652,795 in Post Retirement Benefit (PRB) costs
claimed for Medicare reimbursement by Horizon Blue Cross Blue Shield of New Jersey (Horizon).   The $2,652,795
represents PRB costs that will be incurred subsequent to the termination of Horizons Medicare contract.  We found
that Horizons claim for $2,652,795 of PRB costs is unallowable for Medicare reimbursement.  We recommended that Horizon
withdraw its claim for the $2,652,795 of unallowable PRB costs.  Horizon did not comment on our finding and recommendation.